No. 20-6689

 

IN THE

SUPREME COURT OF THE UNITED STATES

MATTHEW J. KWONG - PETITIONER
VS.
CHESWOLD (TL), LLC, et al. - RESPONDENT
PROOF OF SERVICE

I, Matthew John Kwong, do swear or declare that on this date, March 19, 2021, as
required by Supreme Court Rule 29, I have served the enclosed PETITION FOR
REHEARING on each party to the above proceeding or that party’s counsel, and on
every person required to be served, by depositing an envelope containing the above
document in the United States mail properly addressed to each of them and with first-
class postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.

The names and addresses of those served are as follows:

Greene Law, P.C., 11 Talcott Notch Rd., Farmington, CT 06032,
Tel: (860) 676-1336, Email: service@greenelawpc.com

John Joseph Bowser, Esq., Committee, 148 Deer Hill Ave., Danbury, CT 06810,
Tel: (203) 744-2150, Email: cshannon@chlaw-ct.com

Office of the United States Trustee, 150 Court St., Ste. 302, New Haven, CT 06510,
Tel: (203) 773-2210, Email: USTPRegion02.NH.ECF@USDOJ.GOV

I declare under penalty of perjury that the foregoing is true and correct.

By
Matthew John Kwong, pro se

9 Bradley Ln., Sandy Hook, CT 06482
RECEIVED
MAR 2.6 2021

OF THE CLERK
QFRIGE Ge coum, US.

Executed on March 19, 2021.

    
 
     
